<html>
<title> - NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE NATIONAL INDIAN GAMING COMMISSION</title>
<body><pre>[Senate Hearing 113-521]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-521

NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE NATIONAL 
                        INDIAN GAMING COMMISSION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 12, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                 
                 
                 
                 
                 
         
         
         
         
                      U.S. Government Publishing Office                      
        
   92-196 PDF                WASHINGTON:2015
  ------------------------------------------------------------------------------       
  For sale by the Superintendent of Documents,U.S. Government Publishing Office  
 Internet:bookstore.gpo.gov. Phone:(toll-free)(866)512-1800;DC area (202)512-1800
         Fax;(202) 512-2104 Mail:Stop IDCC, Washington,DC 20402-0001


 
         
         
         
         
         
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 12, 2014................................     1
Statement of Senator Barrasso....................................    24
Statement of Senator Begich......................................     3
Statement of Senator Crapo.......................................     3
Statement of Senator Franken.....................................     2
Statement of Senator Johnson.....................................     3
Statement of Senator Tester......................................     1

                               Witnesses

Chaudhuri, Jonodev Osceola, Nominee to be Chairman of the 
  National Indian Gaming Commission..............................     3
    Prepared statement...........................................     5

                                Appendix

Berrey, Hon. John, Chairman, Quapaw Tribe of Oklahoma, letter 
  submitted for the record.......................................    31
Dixon, Hon. Stacy, Tribal Chairman, Susanville Indian Rancheria, 
  letter submitted for the record................................    32

 
     NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE 
                   NATIONAL INDIAN GAMING COMMISSION

                              ----------                              


                      WEDNESDAY, NOVEMBER 12, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:00 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. We call the Committee on Senate Indian 
Affairs to order.
    Today the Committee is going to hold a hearing to examine 
the President's nomination of Jonodev Osceola Chaudhuri to 
serve as Chairman of the National Indian Gaming Commission. Mr. 
Chaudhuri was nominated on July 22nd by President Obama and has 
served this past year as Vice Chair of the Commission after 
being appointed to that position by Secretary Jewell.
    When Congress enacted the Indian Gaming Regulatory Act 25 
years ago, it established the National Indian Gaming Commission 
as an independent agency to oversee gaming at the Federal 
level. The Act recognized tribes as the primary regulators of 
gaming, unless specific responsibilities of the commission.
    The agency's mission is to carry out this oversight with 
the goals of promoting tribal economic self-sufficiency, 
maintaining the integrity of the Indian gaming industry and 
ensuring that tribes are the primary beneficiaries of their 
gaming activities.
    The NIGC Chairman is tasked with reviewing tribal gaming 
ordinances, reviewing management contracts, conducting audits 
and investigations and undertaking enforcement actions, 
including issuing closure orders and civil fines. In addition 
to its oversight role, the commission also works to provide 
technical assistance and training to tribal regulators.
    The Chairman and two commissioners oversee nearly 100 
employees who work at Washington, D.C. headquarters and seven 
regional offices. The agency is funded at approximately $20 
million annually, all through fees collected from tribal gaming 
operations.
    Since the creation of the commission, Indian gaming has 
seen a tremendous growth. While tribal gaming started with 
small bingo halls and poker rooms, today the commission 
oversees 422 gaming facilities operated by 240 tribes in 28 
States. In this past year, Indian gaming revenues exceeded $28 
billion for the first time in history.
    Tribal governments use gaming revenues to provide essential 
services, including education and health care, to its tribal 
members. They are also used for infrastructure development such 
as roads, water systems, housing. Indian gaming also provides 
thousands of jobs for Native and non-Native residents alike. 
For many tribes, gaming is just a small revenue generator used 
to supplement tribal economies, while for others, gaming has 
allowed tribes to revitalize their communities and achieve 
greater levels of self-governance.
    While concerns expressed by opponents of Indian gaming have 
largely failed to materialize, there is a constant need to be 
vigilant in the oversight of the industry. This protects tribes 
and their members and maintains the integrity of the industry. 
For the commission to succeed it needs good leadership. The 
nominee for Chairman, Mr. Chaudhuri, has provided that 
leadership in an acting capacity for over a year now. Mr. 
Chaudhuri has an extensive background in Indian affairs and is 
respected in Indian law and Indian gaming communities. He has 
received numerous letters of support, including those from the 
Arizona and Oklahoma Indian Gaming associations, two of the 
States where he has been most active in his career.
    I want to thank Mr. Chaudhuri for his service to date, 
thank you, and for your willingness to take on this position. 
If confirmed, I look forward to hearing from you today about 
the commission's activities and how you would lead the 
commission to continue meeting the challenges facing Indian 
gaming going forward.
    The Chairman. Do any of the other members have a statement?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. I do.
    The Chairman. Senator Franken?
    Senator Franken. Thank you, Chairman Tester, for holding 
this hearing today, and thank you, Mr. Chaudhuri, for your 
service so far. Indian gaming is a vital economic development 
tool for many tribes across our Country and in my State.
    I said in our last hearing about gaming that I believe the 
fact that gaming revenue dwarfs Federal spending in tribal 
communities is an indictment of Federal policy and an 
indication of why it is so important to protect Indian gaming. 
The National Indian Gaming Commission is vital to that effort, 
and I know you take your responsibility seriously.
    In many ways, I think we are at a very important moment for 
Indian gaming. Increased competition from commercial gaming and 
the unpredictable effect of rapidly changing technology could 
either make or break this important economic development tool. 
I look forward to hearing from you about your views on these 
issues and your role in moving Indian gaming forward.
    Thank you, and thank you, Mr. Chairman.
    The Chairman. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I don't really have any 
comments other than to say I am glad to see you here, I am glad 
to see this opportunity to appoint Mr. Chaudhuri, thank you for 
being here from St. Paul, which of course we always like to 
remember Alaskans here. We appreciate it a great deal and I am 
looking forward to getting this nomination moving forward and 
also spending time with you. Thank you.
    The Chairman. Senator Crapo?

                 STATEMENT OF HON. MIKE CRAPO, 
                    U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman, for 
holding this hearing on the President's nominee to lead the 
National Indian Gaming Commission, and thank you, Mr. 
Chaudhuri, for being here today.
    Allow me to extend a welcome to your family for being here 
as well. And in the interest of hearing directly from you, I am 
going to keep my remarks very brief, Mr. Chairman.
    The National Indian Gaming Commission serves a vital role 
in regulating gaming activities related to tribal lands. The 
results of the compromise solution to conflicts surrounding 
Indian gaming between various stakeholders is that the 
commission and its authorizing legislation seeks to balance the 
need to promote tribal sovereignty with the need to be 
sensitive to the concerns of other affected interests and the 
States. As such, the commission must demonstrate a strong 
willingness to work collaboratively with all of our impacted 
stakeholders as it carries out its duties and responsibilities.
    I won't go any further, Mr. Chairman. I look forward to 
hearing Mr. Chaudhuri's views on this and other related matters 
today. And again, welcome.
    The Chairman. Thank you.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Welcome, Mr. Chaudhuri. As a side note, I 
welcome also Dr. Chaudhuri, he was a faculty member at USD long 
ago, and I welcome him.
    The Chairman. Thank you, Senator Johnson.
    With that, we will turn it over to you, Mr. Chaudhuri, for 
your statement.

STATEMENT OF JONODEV OSCEOLA CHAUDHURI, NOMINEE TO BE CHAIRMAN 
                 OF THE NATIONAL INDIAN GAMING 
                           COMMISSION

    Mr. Chaudhuri. Thank you, Chairman, members of the 
Committee, [greeting in Native tongue]. I am very honored to be 
here today.
    My name is Jonodev Osceola Chaudhuri, and I a am a proud 
citizen of the Muscogee Creek Nation. I am honored to be 
President Obama's nominee for Chairman of the National Indian 
Gaming Commission. Thank you for today's hearing to consider my 
nomination.
    In my time at the NIGC, much which has been spent as acting 
Chairman. I have led and worked closely with our extraordinary 
team to keep the agency operating smoothly and on a positive 
trajectory during a period of transition. I have made a number 
of critical decisions and I have done so with a judge's 
commitment to fairness and process. I have never shied away 
from difficult decisions.
    Should I be confirmed, I will build on the agency's ability 
to engage in sound regulation consistent with the Indian Gaming 
Regulatory Act.
    With me today, as mentioned, is my wife, Marissa. Marissa 
is incredible. She is a wonderful person in an incredible 
profession. She serves her Alaska Native community, the Aleut 
Community of St. Paul Island, very well as a member of their 
management team. I am also joined by my son, Kanuux, who is 
seven. Our youngest son is a little too unpredictable to be 
brought in public at this time, so he is at home with a family 
friend.
    I am thankful every day of my life for having Marissa in 
it. I am also very honored and excited to be joined today by my 
father, Joyotpaul Chaudhuri, Joy, who at the age of 81 has 
traveled to be here from Tempe, Arizona. My family's values, 
guidance and support have made me who I am. So I am very 
thankful, Chairman, Vice Chairman, members of the Committee, to 
join you today.
    I understand the profound impact that responsible and 
purpose-driven gaming has had in many communities throughout 
Indian Country. Before law school, I worked for three years as 
an educator and cultural preservationist for an Arizona tribe 
whose gaming operation was in the early stages of flourishing. 
I saw how that community used its gaming resources to invest in 
infrastructure, health services, educational programs and 
cultural preservation efforts. Similarly, I saw how my tribe, 
the Muscogee Creek Nation, and neighboring tribes in 
southeastern Oklahoma began using gaming revenue to transform 
their communities.
    Through these experiences, I appreciate the connection 
between preserving the integrity of Indian gaming and 
supporting tribal self-determination, a goal clearly set forth 
in IGRA.
    I have a solid, well-rounded career that has equipped me 
well to serve as a strong regulator. My judicial experience has 
given me a thoughtful and measured approach to issue 
resolution. My lengthy experience as an attorney and an Indian 
law and gaming teacher has given me a solid understanding of 
the commissions' responsibilities, authority and history.
    My regulatory work at the NIGC, coupled with high level 
policy work at the department of Interior, have given me a full 
picture of how gaming impacts policy on a national scale. 
Finally, my lifetime of service to under-represented 
communities helps me appreciate how prudent economic 
development efforts positively impact real lives.
    These experiences give me a clear understanding of the 
NIGC's role in helping protect a critical avenue for tribal 
nation-building. I have lived most of my life in Arizona, where 
my father, my brother Paul and my aunt Richinda Sands and my 
cousin-brother Lance Sands still live. Growing up, the family 
kept one foot in Muscogee life at all times, always staying 
connected to cultural, ceremonial and church activities in 
Oklahoma. I am a member of the Nokose, or Bear Clan, and my 
warrior name is Nokoshomvhte, or Leader-Bear, from the Nyuaka 
ceremonial grounds, stomp grounds, where I have served as Fire 
Keeper. My mother, the late Jean Chaudhuri, a full-blood 
Muscogee Creek, was a respected Indian Country leader and life-
long community volunteer. My father, a naturalized citizen who 
emigrated here from India in the early 1950s, is a retired 
political science professor who mentored and supported numerous 
students and tribal leaders throughout his career. Both lived 
lives of public service.
    Throughout my life, I have been intimately exposed to core 
Muscogee values of compassion, humility, respect and courage, 
other words for love. Central to my family's belief is that 
these values can be expressed through public service. Elders of 
my tribe, including my mother, often recounted a fundamental 
teaching: whatever gifts you may have do not belong to you; 
they are given to you to help you serve the community.
    For me, the NIGC chairmanship represents an opportunity to 
serve. I welcome the opportunity to keep the agency moving in a 
positive direction. My personal and professional experiences 
make me ideally suited to serve as Chairman and I am honored 
and humbled to be considered for this important task. If 
confirmed, I will perform it to the best of my ability.
    Thank you [phrase in Native tongue]. Thank you for your 
time today. I am happy to answer any questions you may have.
    [The prepared statement and biographical information of Mr. 
Chaudhuri follow:]

Prepared Statement of Jonodev Osceola Chaudhuri, Nominee to be Chairman 
                of the National Indian Gaming Commission
    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee. My 
name is Jonodev Osceola Chaudhuri, and I am proud citizen of the 
Muscogee (Creek) Nation. I am honored to be President Obama's nominee 
for Chairman of the National Indian Gaming Commission (the ``NIGC'' or 
``Commission''). Thank you for today's hearing to consider my 
nomination.
    Since being appointed to serve as a Commissioner by Secretary Sally 
Jewell in September of 2013 and subsequently designated to serve as 
Acting Chairman by President Obama for most of the preceding year, it 
has been my distinct honor and privilege to serve at the NIGC, and I am 
profoundly grateful to President Obama and Secretary Jewell for the 
opportunity to do so. In my time at the NIGC, I have made every effort 
to help keep the agency operating smoothly and on a positive trajectory 
during a period of transition. Should I be confirmed to serve as 
Chairman, I would welcome the additional stability at the agency that 
would result, and I will do my part to help the agency continue to 
engage in sound regulation consistent with the Indian Gaming Regulatory 
Act (IGRA).
    With me today are my wife, Marissa Chaudhuri--formerly Marissa 
Merculieff--and our oldest son, Kanuux. Our youngest son, Hamati, is at 
home with a family friend. My wife is an attorney by trade and serves 
her Alaska Native tribal government, the Aleut Community of St. Paul 
Island, in a management position. She is an incredible person and a 
skilled professional; and I am thankful every day for having her in my 
life. I am also thankful and excited to be joined today by my father, 
Joyotpaul Chaudhuri, who at the young age of 81 and despite health 
challenges that such an age entails, has traveled to be here from 
Tempe, Arizona. My family's values, guidance, support, and grounding, 
which I will discuss in more detail, have not only made me who I am, 
but also provide an excellent backdrop for why I wish to and am willing 
to serve as Chairman of the NIGC.
    My appreciation of the importance of sound regulation flows from my 
professional experience in law and public policy. My interest in public 
service flows from a belief that we each have a responsibility to do 
whatever we can to help improve opportunities for future generations. 
For me, service as Chairman of the NIGC resonates with my professional 
experience and commitment to service, as the regulation of Indian 
gaming requires a complete understanding of the law, of how gaming fits 
into broader public policy, and, on a micro-level, of how gaming 
impacts real lives in the community. I believe my professional and 
public service backgrounds have served the agency well in this regard 
thus far and will continue to do so. My professional pursuits and my 
commitment to service are intertwined, and both are directly born from 
my family background.
    I am the son of the late Jean (Hill) Chaudhuri, a full-blood 
Mvskoke (``Muscogee'') born on our family's allotment in Okfuskee 
County, Oklahoma, and Joyotpaul Chaudhuri, a naturalized citizen who 
came to the United States from Calcutta, India, in the early 1950s. 
Together, they are my two greatest heroes as they are in their own ways 
the embodiment of service.
    My mother stood as a powerful example of leadership and the 
strength of Creek women. By all accounts, tribal life in rural Oklahoma 
in the 1930s and 1940s was hard. Not unlike many Indian families of the 
day, our family drew water from a nearby well, did not have 
electricity, and often worked as migrant farm workers to make ends 
meet. Relations between American Indian and non-Indian communities were 
strained, and educational opportunities were limited. Mom did not 
finish high school. Despite her lack of formal education, her love of 
knowledge drove her to be self-educated. She was inquisitive, and 
learned from elders, including a clan-grandfather that had walked the 
Trail of Tears. She learned all that she could about our peoples' 
history, ceremonies, language and culture. She also learned church 
life, which was of great significance to much of the Creek community. 
English was her third language (Creek was her first, Cherokee her 
second), and in the tradition of Creek orators, she eventually mastered 
the art of public speaking and advocacy.
    Continuing a commitment to service that she learned from her 
parents and relatives, she became a grassroots organizer, storyteller, 
playwright, author, and an advocate for the Muscogee community, other 
Native communities, and other under-privileged communities. Always 
grounded in her culture and values, her foundation as a Muscogee 
(Creek) woman guided her to assist with numerous issues and public 
service efforts throughout her life and throughout her travels all 
across the country. As a result, her work and service to her people, 
Indian Country in general, and numerous non-Indian disadvantaged 
communities, such as founding a health clinic and off-reservation 
cultural center, was acknowledged on both a national and local level.
    Although raised a world away in India, my father shared Mom's 
values and commitment to service. It was my dad's childhood passion for 
Native American history that led him to come to United States, and more 
specifically Oklahoma. Dad became a political philosophy professor, 
teaching American Indian policy and political science for well over 40 
years, helping to develop Indian Studies programs at a number of 
universities, most notably the University of Arizona. Along the way, 
Dad mentored and supported numerous students, tribal leaders and 
organizers, and community members. Dad has published many articles and 
monographs in Indian affairs. Along with Mom, he authored A Sacred 
Path: The Way of the Muscogee Creeks, a comprehensive synthesis of 
Muscogee history, culture, and philosophy.
    From my family's teachings and example, I have been intimately 
exposed to core Muscogee values, the foremost of which are love/
compassion, humility, respect, and courage. Central to my family's 
beliefs is that these values can be expressed through public service. 
Elders of my tribe, including my mother, often recounted a fundamental 
teaching: whatever gifts you may have do not belong to you; they were 
given to you to share with others and to serve the greater good of the 
community. The core Muscogee values have been reinforced by my own 
personal and professional experiences, and I strive to apply them in 
all matters.
    I have lived most of my life in Arizona where my father, my brother 
Paul (Joydev Mahagi), my aunt Richinda Sands--another family tradition-
keeper, and my cousin-brother Lance Sands still live. I am a member of 
the Nokose (Bear) Clan, and my warrior name is Nokoshomvhte (Leader/
Front Bear). I belong to and participate in Nuyaka traditional/
ceremonial grounds in Okfuskee County, Oklahoma, and I have served as 
Totkv-Vfastv (fire-keeper) there. My family also has close ties to 
Greenleaf Indian Baptist Church in Okemah and lineal ties to the Arpeka 
and Hickory Ground ceremonial grounds. Growing up, the family kept one 
foot in Oklahoma at all times. In addition to regular trips to visit 
family, Mom and Dad made sure we stayed connected to cultural and 
ceremonial activities throughout my childhood.
    As an adult, I have pursued educational and professional pursuits 
that I felt would enhance my ability to serve. After graduation from 
Dartmouth College in 1993, I spent three years as a culture and 
enrichment coordinator for the Fort McDowell Yavapai Nation in Arizona. 
On the heels of a historic standoff with federal officials that helped 
shape the contours of gaming throughout the state, Fort McDowell was in 
the midst of a substantial expansion of its gaming operation, as well 
as of its overall economic development activity. It was a formative 
time for me. My primary interest was to serve as an educator and 
cultural preservationist for the community, but I was amazed by the 
unmistakable connection between economic development and self-
determination. I saw how the tribe used resources from gaming to 
bolster its services and programs and build a viable infrastructure. I 
saw how resources were used to support culture and language programs as 
well as to develop tribally-run health care services. I continue to 
carry with me the lessons I learned firsthand during that period about 
the connection between responsible and purpose-driven gaming activity 
and cultural preservation and self-sufficiency.
    After my time at Fort McDowell, I attended Cornell Law School to 
pursue a career in law and set out to equip myself with the best 
professional experiences I could, not knowing where such experiences 
would take me. I have since been blessed to have had a solid, well-
rounded career, having served in the private sector for approximately a 
decade and serving in public trust positions within federal, state, and 
tribal governments throughout the last 15 years. My education and 
professional experience has given me both a broad understanding of law 
and public policy, as well as a targeted and direct understanding of 
the gaming industry and its impacts on lives on the ground.
    I am an attorney, licensed in Oklahoma, Arizona, and Washington 
State, and admitted in various federal, state, and tribal courts. After 
law school, I clerked for judges James Ackerman and Noel Fidel of the 
Arizona Court of Appeals before practicing civil litigation, business 
and finance, and Indian law from 2001-2006 with the firm of Snell & 
Wilmer, a large national law firm based in Phoenix. I left Snell & 
Wilmer to start my own small firm, which I ran from 2006-2010. I also 
have a modest background in criminal law, having clerked for the 
Arizona Federal Defender's Office in Phoenix and practiced as a Deputy 
Public Defender in Maricopa County. Throughout my practice, I actively 
engaged in activities targeted at serving the legal profession and the 
greater community, regularly teaching Indian law courses, including 
Indian gaming, at Phoenix College and serving on numerous boards and 
organizations, including service as Chairman of the Arizona Bar 
Association's Indian law section.
    Contemporaneous with my practice of law, I have been honored to 
serve as a judge for many years. I have served as a full-time trial 
judge for the Puyallup Tribe of Indians in Washington State, as well as 
an appellate judge for the Gila River Indian Community in Arizona, the 
Yavapai-Apache Nation in Arizona, the San Manuel Mission Band of 
Indians in California, and, from 2006-2012, the Muscogee (Creek) 
Nation. Much of my time on the Muscogee (Creek) Nation Supreme Court 
was spent as Chief Justice.
    I have been fortunate to receive high-level public policy 
experience, serving as Senior Counselor to the Assistant Secretary--
Indian Affairs at the U.S. Department of the Interior, as well in my 
most recent post as Acting Chairman of the NIGC.
    Each of these experiences has given me direct, practical skills 
well-suited to the position of Chairman of the NIGC.
    First and foremost, having served in a leadership role at the NIGC 
for over a year, much of that time as Acting Chairman, I have gained a 
strong understanding of the work and challenges of the agency. During 
that time I have strived to make decisions with the professional 
perspective and personal values I previously discussed. I have done so 
with a judge's commitment to fairness and process and with a personal 
sense, born from experience, of the real world impact those decisions 
would have. I have never shied away from difficult decisions in my 
professional career, nor will I do so in the future.
    The greatest resource of the agency is its highly skilled and 
committed staff. As the NIGC is the only agency in the federal 
government that regulates any form of gaming, the staffs skillset is 
unique and critical to the agency's continued success. The 
professionalism and dedication within the NIGC team is remarkable, and 
I have been privileged to work with and learn from my NIGC colleagues 
over the last 14 months. I look forward to continuing to do so 
throughout my time at the agency.
    Through the Commission's outreach at consultations, tribal 
leadership meetings, and industry functions, I have expanded on my 
relationships with industry stakeholders to build on the agency's 
goodwill and collaborative relationships. Together with fellow 
Commissioner Little, I have worked to improve communication within the 
agency and address various operational matters.
    In addition to my firsthand experience with the agency, my 
extensive professional experience has also proven to be directly 
relevant and helpful during my NIGC tenure.
    My judicial experience has been my most useful asset at the NIGC. 
It has given me a thoughtful, measured, approach to issue resolution 
with an eye toward long-term impacts. As a judge, one must hold a 
solemn commitment to the fair and impartial application of the law. The 
same is true as a regulator. Both require a thorough understanding of 
the law and procedures to be applied in a given situation and both 
require one to place decisions in a proper public policy and real world 
context.
    My lengthy service as an attorney and teacher in the field of 
Indian law, including Indian gaming matters, has given me a solid 
understanding of the Commission's legal and regulatory issues. My 
policy background from service at the Department of the Interior and a 
number of community organizations, as well as my personal experience, 
have given me a full picture of how gaming and gaming decisions impact 
federal Indian policy and tribal nation-building on a national scale. 
Finally, my volunteer service and my lifetime service to 
underrepresented communities help me appreciate how prudent economic 
development efforts positively impact real lives.
    All of these experiences have given me a deep respect for efforts 
tribes engage in to improve their communities and an appreciation for 
the role that NIGC plays in protecting a critical avenue for tribal 
economic development through sound regulation. Further, these 
experiences have taught me to prepare for foreseeable challenges in the 
work that any organization performs. For these reasons, I am committed 
to building on the agency's philosophy of cooperation and collaboration 
with tribes and tribal regulators, and I am committed to doing whatever 
I can to ensure that the agency continues to improve its technological 
capabilities.
    I am committed to applying the regulatory tools of IGRA in a 
balanced, practical, and fair manner. I welcome the opportunity to do 
what I can to fulfill the requirements of IGRA and keep the agency 
moving in a positive direction. On the surface, it may appear that my 
path to the NIGC is markedly different from others who have served in 
the post. While that may be true, I am convinced that my personal and 
professional experiences make me ideally suited for the role at this 
point in the agency's history.
    For me, the NIGC Chairmanship represents an opportunity to serve. 
There are others who are more suitable than I am to be full-time 
cultural preservations; although I take seriously my responsibility to 
learn and pass on my peoples' traditions to my children and whomever 
else I may be able to. There are others more suitable than I to be 
full-time language preservationists, although I will do what I can to 
continue learning Creek until my last days. There are certainly others 
better suited to fulfill many of the other important public and private 
roles that together, help ensure the continued survival and success of 
our people. At this moment, however, I have the opportunity, as a 
regulator, to do my part to perform an important role in supporting 
self-determination. Namely, through sound regulation, I can help 
preserve the integrity of an industry that has had a monumental impact 
on the historical landscape of Indian country. This is what I can do 
now to help. I stand willing and able to do so. I am honored to be 
considered for this important task, and if confirmed, I will perform it 
to the best of my ability.
    Thank you for your time today. I am happy to answer any questions 
you may have.
                                 ______

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 
            
                                 
                                 
                                 

    The Chairman. Thank you, Mr. Chaudhuri.
    I would start by, you discussed some about your activities 
and initiatives that have happened since you have been with the 
commission. Are there any goals or changes that you would 
pursue if confirmed, other goals you would pursue if confirmed?
    Mr. Chaudhuri. Thank you, sir.
    Certainly I discussed technology quite a bit in my written 
testimony. We are obviously living in the information age and 
the industry we regulate is driven by technology. That is 
absolutely clear. Tribes have been incredible innovators of 
gaming technology. And in order to keep pace with our 
regulatory duties as well as our internal capabilities, we have 
to make sure that technology is a top priority for the agency.
    So investing in infrastructure, staff, as well as ongoing 
regulatory review, technology is certainly key to that.
    The Chairman. There have been two commissioners now for a 
while. If you get confirmed for this position, there will be a 
commissioner slot that is open. Can you discuss the importance 
of having a full commission and also, discuss why it is 
important to have a full commission, is there anything you 
cannot do because the commission isn't full?
    Mr. Chaudhuri. Thank you, Chairman. I really have to take 
my hat off to the extraordinary staff at the NIGC. We have been 
able to keep the agency moving along and we have been able to 
perform our regulatory duties in a real time of transition.
    That said, there are many, many benefits to having a full 
commission. On appeal, any appeal of the Chairman is appealed 
to the full commission. As things stand right now, we have two 
commissioners and that won't change until and unless, 
hopefully, be it so willing, confirmation takes place, that 
won't change.
    The practical effect of that is any appeals of the Chairman 
go to an even-numbered appellate body, of which the Chairman is 
one of them. That is one specific example.
    But additionally, all voices are required as they benefit, 
the regulatory review process. So having the expertise of a 
full commission is absolutely essential in order for us to 
perform our ongoing obligation of regulatory review.
    Finally, while I am very honored to serve as acting 
Chairman right now, the Vacancies Act does have its own set of 
limitations such that the acting Chairman can serve, in certain 
circumstances, whenever there isn't an acting Chairman or a 
confirmed Chairman in place, there are other workarounds that 
the agency has to perform to perform its regulatory duties. So 
hopefully that is, in a nutshell, a summary of some of the 
considerations at play.
    The Chairman. Okay. I think it is important we get the 
third commissioner. But I would ask, is there anything you 
cannot do without that third commissioner, besides the appeals?
    Mr. Chaudhuri. At this time, as acting, my technical 
regulatory authorities, as set forth in IGRA, I am able to 
perform those. However, one of the important functions of the 
NIGC is to perform a public education role in the industry. 
Certainly the weight of a confirmed Chairman is different than 
acting chair. And I would welcome the stability and the 
consistency that a confirmed chair would bring.
    The Chairman. Thank you.
    Vice Chair Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this hearing. Today we are considering the President's 
nominee to serve as the Chairman of the National Indian Gaming 
Commission. The position has been vacant since October 2013, in 
my opinion, Mr. Chairman, for too long. I think it is an 
important position, one charged with significant 
responsibilities in Indian gaming, a $28 billion industry. And 
yet the White House didn't even send this nomination to the 
Senate until July, 2014, a nine-month delay. Despite repeated 
inquiries by our staff, the Administration didn't even submit 
the required paperwork until September of 2014. So I appreciate 
your diligence, Mr. Chairman, in considering this nomination, 
and I hope that in the future the President will ensure that 
nominations of qualified candidates and the completed paperwork 
are submitted to the Committee in a timely manner.
    But despite the delays, I do want to welcome our nominee, 
Mr. Chaudhuri, and your family. Congratulations on the 
nomination. As we discussed in our Committee hearings in July 
of this year, there should be a strong regulatory enforcement 
in Indian gaming, and the industry needs integrity and 
accountability. I am confident that you intend to ensure these 
principles are carried out in this industry. I appreciate your 
testimony and being here. I know you have a young son you said 
might be unruly for the Committee, but please tell him that we 
are very proud of his father and this nomination.
    Mr. Chaudhuri. Thank you, sir.
    Senator Barrasso. The gaming industry, as I said, needs 
integrity, as does the agency regulating the industry. The 
agency officials should comply with all applicable laws and 
ethics rules and be cognizant of public perceptions of agency 
integrity. The Committee must also examine potential conflicts 
of interest for nominees that we consider. I understand that 
you have been successful at gaming, personally have won 
significant amounts of money in past poker tournaments. And so 
I just ask that you please explain how you are going to avoid 
any conflicts of interest relative to your personal interests 
and success, including perhaps addressing any public perception 
there might be if you are confirmed by the agency.
    Mr. Chaudhuri. Thank you, Vice Chairman. I think the big 
win that you may be referring to is the win that took place I 
think nine and a half years ago, or nine years ago, somewhere 
in that range, back in 2005. I enjoyed that. But frankly, I am 
very mindful of the importance of preserving public perception 
and public faith in a regulatory body. So I would never engage 
in gaming in a facility that we operate anyway. But just in an 
abundance of caution on my own, I have chosen, for the entire 
time I remain at NIGC, I am not going to be conducting any 
gaming activity personally in any facility. I am very sensitive 
to the perception issues that you raised.
    Senator Barrasso. In our Committee hearing back in July, I 
think it was July 23rd, we talked and you testified that the 
Assistance, Compliance, Enforcement initiative, the ACE 
initiative, would be a guiding principle in fulfilling your 
agency's regulatory role. You had mentioned a few metrics, such 
as a number of trainings conducted by the agency in place of, 
to measure the effectiveness of the ACE initiative. I know the 
Government Accountablity Office is also looking at this 
initiative.
    In the event that the initiative is not successful, then I 
ask, what will you do if confirmed to ensure that the agency 
still will be effective in fulfilling its regulatory role?
    Mr. Chaudhuri. Thank you, Vice Chairman. Under IGRA, 
compliance is the goal. It is the goal of our agency as well as 
it is the goal of Indian Country regulators, tribes and tribal 
regulatory bodies. Whatever gets us there most effectively is 
what is important.
    I am convinced, based on everything that I have seen and my 
experience with Indian Country, collaborative work on the front 
end is the most efficient way to get there. Frankly, with the 
over 5,400 tribal regulators in the field who also have an 
interest in preserving and protecting the Indian Gaming 
Regulatory Agency, to me it just makes sense to leverage those 
relationships in a collaborative fashion.
    That said, at the same time, a line of one of my favorite 
poems, the author is kind of a mixed bag, but a line from that 
poem is, ``to dream and not make dreams your master, to think 
and not make thoughts your aim,'` the point is, I am practical. 
Whatever gets us to compliance, I am willing to tweak as time 
goes by. That said, I don't think working hand in hand with 
tribes to get to compliance is by any means an impossible 
dream. I am convinced we will get there. We are getting there 
and we have been getting there.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    I will take a little bit of Chairman privilege here and 
say, we have one more hearing next week, but Tim Johnson, you 
have been great on this Committee. We thank you for your 
leadership and we thank you for your service.
    Senator Johnson. Mr. Chaudhuri, one of the responsibilities 
for the NIGC is to ensure that tribes are recipients of gaming 
revenue. How does NIGC monitor this aspect of tribal gaming 
operations?
    Mr. Chaudhuri. Thank you, sir. And thank you so much for 
your service to the Nation all these years. I was a little 
upset with my father that he didn't tell me about that 
connection until the courtesy meeting you were so generous to 
extend. So thank you very much.
    Yes, ensuring that tribes are the primary beneficiaries of 
gaming is a fundamental pillar of the Indian Gaming Regulatory 
Act. We do that in a number of ways. We are very attuned and 
receptive to inquiries that come in from the field about the 
use of gaming revenue. However, our roles, we start and end 
with IGRA. Our responsibilities, we don't issue revenue 
allocation plans. The Department of the Interior does. However, 
we do have an oversight responsibility to track the use of 
revenues and we do that through information coming to us 
through site visits and through our positive connections to 
tribal regulators.
    Senator Johnson. Looking forward, what will be some of the 
top issues facing Indian gaming and how will you approach each 
of those issues?
    Mr. Chaudhuri. Thank you, sir. Let me expand on technology 
a little bit. Not only have tribes been technological 
innovators, but they have played a major role in developing 
protective technologies in the field. A major thrust of the 
front end work that we do in terms of working with tribes 
before there are regulatory issues that come into play involves 
training. We are committed to working and providing training 
and technical assistance to tribes and tribal regulators. In 
order to do that, we have to have internal technology 
capabilities to adequately provide those trainings.
    So we are investing in internal capacity. We just upgraded 
all of our infrastructure with the recent move. But we will 
continue to maintain and recruit sufficient staff who can track 
industry changes and provide meaningful trainings.
    Senator Johnson. Can you explain how your experience 
serving on tribal courts has prepared you for the role of chair 
for the NIGC?
    Mr. Chaudhuri. Thank you, sir. I am convinced that my 
judicial service has been and will continue to be my biggest 
professional asset. As a judge, you have to have a solemn 
commitment to the fair and unbiased application of the law. And 
you have to have a profound respect for the law and for order.
    The same is true as a regulator. We have our organic law 
that we are required to implement, the Indian Gaming Regulatory 
Act, as well as our own regulations. My role as Chairman 
involves first and foremost understanding the law, and 
understanding our regulations, but implementing them and 
applying them in a fair way with an eye toward the long term. 
To me, my judicial background has been directly relevant and 
will continue to be.
    Senator Johnson. Thank you. I yield back.
    The Chairman. Thank you. Senator Franken?
    Senator Franken. Thank you, Mr. Chaudhuri, for your 
testimony. You brought up technology a number of times. Can you 
give me some overview of all the different ways that technology 
impacts Indian gaming, from the technology of the games 
themselves to the technology, you talked about training, to the 
technologies of vulnerability to hacking? Just give me an 
overview of the technological challenges that might come from 
internet gambling, in terms of as a challenge to Indian gaming.
    Mr. Chaudhuri. Thank you, Senator. As I mentioned, I have 
been a big fan for many years in different capacities.
    [Laughter.]
    Mr. Chaudhuri. Thank you. In terms of technology, there are 
impacts internally as an agency that I can discuss. But there 
are also external impacts. First of all, on the operations side 
of things, tribes have been innovators. So in terms of 
developing games, developing software, developing hardware that 
helps tribes meet their, or fulfill their regulatory or their 
lawful potential to game, tribes have been incredible 
innovators. An example my fellow Commissioner Little always 
brings up is the change machines that you see in almost any 
machine, an Indian gaming machine or non-Indian gaming machine. 
That was developed in Indian Country.
    So on the operations side, in order to maximize potential, 
lawful potential, tribes innovate on a daily basis.
    On the vulnerability side, in order to protect against 
vulnerabilities, since gaming is a financial industry, the 
protections available in existing software are, continue to be 
a major source of investment for tribes and tribal regulators. 
We have to track and be on top of the software that is out 
there.
    In terms of bureaucratically, making small tweaks to ensure 
that we do our job as an agency better, we have to be on top of 
technology. So for example, we just finalized a pilot project 
to allow all tribes to submit fees through pay.gov. And that 
was largely, we were able to do that largely because of some of 
the improvements we have made in the last year to beef up our 
technologies.
    So operationally, in terms of maximizing profits, in terms 
of minimizing vulnerabilities as well as doing our job 
internally as an agency, technology affects and touches 
everything we do. I would like us to be a cutting edge smaller 
agency within the Federal family.
    Senator Franken. Does the need to continually invest in 
technology ever jeopardize the revenue going to the tribes?
    Mr. Chaudhuri. Well, we can't control how tribes spend 
their operational resources or even their regulators' 
resources. However, my personal opinion is that it is great 
bang for the buck in terms of investing in ongoing cutting edge 
technology. Certainly it prevents financial leakage in an 
operation and as we have seen in terms of the growth of the 
industry since IGRA was passed 25 plus years ago, technology 
walks hand in hand with maximizing market potential. That is my 
opinion.
    Senator Franken. One last question. If you ever feel that 
NIGC lacks the authority or ability to properly protect the 
tool of economic development for Indian Country that is 
absolutely vital, I hope that you will speak up and let the 
Committee know. If confirmed, will you keep this Committee 
regularly updated on the state of Indian gaming, including 
threats and opportunities for it?
    Mr. Chaudhuri. I will absolutely commit to that, Senator, 
and frankly, I would welcome and look forward to having an 
ongoing dialogue with the Committee. No bill is perfect; we do 
our best and I think we have wonderful tools available to us 
within IGRA. And I think our remarkable team does a great job 
performing its regulatory obligations. But any source of law is 
worth talking about as time goes on, and I am willing to engage 
in ongoing dialogue.
    Senator Franken. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Begich?
    Senator Begich. Mr. Chairman, before I ask some questions 
to Mr. Chaudhuri, what is the idea at this point to finish the 
hearing then try to do this in the next couple weeks? Okay, so 
we will see a speedy result of the operation here.
    The Chairman. That is the hope.
    Senator Begich. Okay. I am just, because it took us this 
long to get it. I anticipate Congress, the minority and 
majority will work together to move this rapidly.
    The Chairman. We are not doing this for the exercise.
    Senator Begich. Okay. Good. I don't really have a lot of 
questions, I just want to say thank you very much for your 
willingness to step up to this position even though you have 
been acting, but now to be in the formal position, I think you 
will do a great job. And I am a tournament poker player, so I 
kind of like that you have experience around that. That gives 
you a balance of approach.
    But again, I won't add any more to what other members have 
said. It is an important commission, to make sure that revenue 
streams go to the tribes that are deserving and making sure the 
gaming situation occurs correctly in the States that allow it. 
As you know, our State does not allow it. But again, I want to 
thank you for your willingness to participate.
    And a special thank you to your family, because I know the 
travel and other activities that it will require will mean time 
away from your family. So I don't really have a lot of 
questions, just to say thank you very much for your willingness 
to do this and I look forward to seeing you approved.
    Mr. Chaudhuri. Thank you Senator. Thank you for your 
service to the Nation as a whole, for all of Indian Country, 
but also on behalf of my family and my in-laws, on behalf of 
Alaska Natives as well. Thank you.
    The Chairman. Thank you, Senator Begich. I have one more 
question, then if Senator Barrasso or you have additional 
questions, we certainly would entertain those.
    There is a push out there for Internet gaming. There are 
big stakeholder decisions; big stakeholders that there could 
potentially big schisms regarding Internet gaming. I would like 
to know your thoughts on NIGC's role, if any, in the regulation 
of Internet gaming conducted by tribes. If the tribe is 
operating Internet gaming off of servers located on tribal 
lands, would that fall under the tenets of IGRA?
    Mr. Chaudhuri. Thank you, Chairman. Let me first say, as 
the only agency in the Federal family that exclusively, or that 
regulates any form of gaming, that exclusively is there, exists 
to regulate gaming, we have a very specialized set of skills as 
well as a very strong personnel team in place at the agency. I 
am absolutely confident that we have the capacity to adjust as 
necessary to any market-driven role or regulatory role that is 
given to us. I have just been honored to work with our team at 
the agency and I believe our team would be up for any 
challenges that are thrown at us.
    It is difficult to speak, and I definitely don't want to be 
pre-decisional about anything, speak in the abstract about any 
games that aren't before us as a commission. So whether or not 
a certain activity would fall within the regulatory scope of 
the NIGC, it is very fact-driven and I would hesitate to speak 
generally.
    However, I will say that even under the current language of 
IGRA, we take our regulatory role very seriously in terms of 
regulating gaming activity that takes place on Indian lands. 
And so regardless of what type of gaming is at play, under the 
current language of IGRA, we take our current regulatory role 
very seriously.
    The Chairman. So not to put words in your mouth, but if a 
tribe was operating Internet gaming on servers located on 
tribal land, do you believe you have the oversight?
    Mr. Chaudhuri. There are different elements, and thank you 
for the question, Chairman. There are different elements of 
gaming that are clear under not just IGRA but supporting case 
law. Where the bet is made does matter, and where a bet is made 
affects part of our analysis. But without having a specific 
game proposal in front of me----
    The Chairman. Okay, well, let me approach it from a 
different angle. There are a number of proposals that would 
place primary regulation of gaming within executive departments 
like Treasury or Commerce. Do you believe that tribal interests 
could be protected if the regulator was in Treasury or 
Commerce?
    Mr. Chaudhuri. I have the upmost respect for colleagues at 
Treasury and Commerce.
    The Chairman. They are not being confirmed; you are.
    Mr. Chaudhuri. Thank you, sir. I can speak best to the 
members of our team. In addition to having a longstanding sense 
of the place that gaming sits in larger national policy, we 
have technical expertise within the agency that no other agency 
has. We have been regulating gaming ever since the inception of 
IGRA. And I would never speak to another agency's capabilities 
or capacity, but I can speak to the NIGC's. And we could handle 
whatever would be thrown at us, I am confident of that.
    The Chairman. All right. It may be a debate that comes up 
that you may be in the middle of.
    Senator Barrasso, anything else?
    Senator Barrasso. No, thank you, Mr. Chairman.
    The Chairman. Well, with that, I want to thank you for 
being here today, Mr. Chaudhuri, to consider your nomination of 
Chairman of the National Indian Gaming Commission. We may issue 
follow-up questions in writing and would ask for prompt 
response if so, so that we can move forward with your 
nomination, as Senator Begich has requested.
    So with that, if there is no further comment, this 
Committee hearing of Senate Indian Affairs is adjourned.
    [Whereupon, at 4:38 p.m., the Committee was adjourned.]
    
                            A P P E N D I X
                            

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                                 
                                  <all>
</pre></body></html>
